Report No. D-2011-097                   August 12, 2011




      Army Contracting Command-Redstone Arsenal's
         Management of Undefinitized Contractual
               Actions Could be Improved
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC-RSA                       Army Contracting Command-Redstone Arsenal
AMCOM                         Army Aviation and Missile Command
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IG                            Inspector General
PNM                           Price Negotiation Memorandum
UCA                           Undefinitized Contractual Action
U.S.C.                        United States Code
                                     INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON , VIRGINIA 22202-4704 


                                                                                  August 12, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:,AImy Contracting Command-Redstone Arsenal ' s Management ofUndefinitized
         Contractual Actions Could Be Improved (Report No. D-2011-097)

We are providing this repOli for your information and use. We considered management
comments on a draft of this report when preparing the final repOli. This repOli is the fifth in a
series of repOlis and is pmi of a congressionally mandated periodic review of DoD use of
undefinitized contractual actions. AI·my Contracting Command-Redstone AI·senal contracting
personnel did not consistently comply with statutory and DoD requirements for managing
undefinitized contractual actions, resulting in the AImy assuming additional risk in the award
and negotiation process and possibly paying more profit than necessary.

The comments from the Chief of Staff, Army Aviation and Missile Command, conformed to the
requirements of DoD 7650.3. Therefore, no additional comments are required.

We appreciate the comiesies extended to the staff. Please direct questions to me at (703) 604­
9071 (DSN 664-9071).




                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-097 (Project No. D2009-D000CG-0248.004)                      August 12, 2011

               Results in Brief: Army Contracting Command-
               Redstone Arsenal’s Management of Undefinitized
               Contractual Actions Could Be Improved

What We Did                                               not-to-exceed value without adjusting the
                                                          amount obligated;
Public Law 99-591, section 908(b) requires the
                                                         obligate funds in accordance with the
DoD Inspector General to periodically audit
                                                          contractor’s funding requirements for 7 UCAs
undefinitized contractual actions (UCAs) and
                                                          because they did not take steps to comply with
submit a report to Congress. This is the fifth in
                                                          the Office of Defense Procurement and
a series of reports discussing DoD compliance
                                                          Acquisition Policy requirements for obligating
with section 2326, title 10, United States Code.
                                                          funds; and
We reviewed 43 UCAs with a total not-to-                 properly justify using 3 UCAs because of poor
exceed value of about $3.1 billion awarded by             acquisition planning.
the Army Contracting Command-Redstone
Arsenal (ACC-RSA) from FY 2004 through                  ACC-RSA contracting personnel properly
September 18, 2009, to determine whether                authorized UCA requests and adequately
ACC-RSA contracting personnel complied with             documented their determination of price
the restrictions of the United States Code and          reasonableness for all 43 UCAs.
whether they appropriately justified and                As a result, ACC-RSA contracting personnel’s
definitized UCAs at reasonable prices.                  negotiation positions on price did not consider
                                                        incurred costs for three UCAs, resulting in profit
What We Found                                           positions that were about $800,000 higher than
                                                        they would have been had incurred cost been
ACC-RSA contracting personnel did not
                                                        considered. Therefore, the Government may
consistently comply with statutory and DoD
                                                        have paid more profit than was necessary.
requirements for managing UCAs for 40 of the
43 UCAs that we reviewed. ACC-RSA                       What We Recommend
contracting personnel did not:                          Army contracting personnel should comply with
 definitize 16 UCAs within the 180-day time            Federal and DoD policy for UCAs, better
  frame because of inadequate contractor 
              coordinate with customers to identify changes in
  proposals, prolonged negotiations, and 
              Government requirements, and should revise
  changing Government requirements; 
                   local acquisition guidance to include procedures
 reflect the contractor’s reduced risk in the          for escalating prolonged negotiations and to
  Government’s negotiation position for                 require contracting personnel to adequately
  7 UCAs because they did not follow                    document the profit determination for UCAs.
  applicable guidance;
 adequately support their profit determination         Management Comments and
  for 22 UCAs because they did not adequately
  document their consideration of reduced cost
                                                        Our Response
  risk or the inputs used to create the profit          The Chief of Staff, Army Aviation and Missile
  objective;                                            Command, agreed with our recommendations
 obligate funds within allowable limits for            and provided responsive comments on the
  2 UCAs because they miscalculated the                 recommendations. No further comments are
  obligation amount and decreased the                   required. Please see the recommendations table
                                                        on the back of this page.

                                                    i
Report No. D-2011-097 (Project No. D2009-D000CG-0248.004)       August 12, 2011


Recommendations Table

            Management                  Recommendations       No Additional
                                       Requiring Comment    Comments Required
Commanding General, Army Aviation                                  1.
and Missile Command
Principal Assistant Responsible for                               2.a-f
Contracting, Army Contracting
Command-Redstone Arsenal




                                          ii
Table of Contents


Introduction	                                                                     1     


      Audit Objectives                                                            1

      Legislation and Congressional Report Requirement                            1

      Background on Undefinitized Contractual Actions                             1

      ACC-RSA                                                                     3

      Review of Internal Controls at ACC-RSA                                      4


Finding. Inconsistent Management of Undefinitized Contractual Actions at 

      ACC-RSA                                                                     5     


      UCA Deficiencies 	                                                          5

      ACC-RSA Contracting Personnel Properly Authorized UCA Requests              6

      Untimely Definitizations 	                                                  6

      ACC-RSA Contracting Personnel Did Not Comply With Requirements
         to Reflect the Impact of the Undefinitized Period on Allowable Profit   12 

      ACC-RSA Contracting Personnel Generally Complied With
         Obligation Restrictions 	                                               17 

      ACC-RSA Contracting Personnel Did Not Obligate Funds
         According to Need 	                                                     18 

      Improper Justifications for Issuing UCAs	                                  19 

      Adequate Documentation of Fair and Reasonable Prices 	                     20 

      Recommendations, Management Comments, and Our Response                     21 


Appendices
     A. 	Scope and Methodology                                                   26 

            Universe and Sample Information                                      26 

            Review of Documentation and Interviews                               27 

            Use of Computer-Processed Data                                       27 

            Use of Technical Assistance                                          28 

            Prior Coverage                                                       28     

     B. August 29, 2008, Office of Defense Procurement and Acquisition 

            Policy Memorandum                                                    29 

     C. Undefinitized Contractual Actions Reviewed	                              31 

     D. Deficiencies Identified From ACC-RSA UCAs Reviewed 	                     35

     E. Definitization Elapsed Days for ACC-RSA UCAs 	                           38 


Management Comments
     Department of the Army	                                                     41

Introduction
Audit Objectives
We determined Army Contracting Command-Redstone Arsenal (ACC-RSA) compliance
with restrictions on undefinitized contractual actions (UCAs) imposed by section 2326,
title 10, United States Code (10 U.S.C. § 2326 [2009]), “Undefinitized contractual
actions: restrictions.” We also determined whether UCAs were appropriately justified
and definitized at reasonable prices. This is the fifth in a series of reports discussing DoD
compliance with 10 U.S.C. § 2326 (2009). See Appendix A for the scope and
methodology and prior coverage related to the objectives.

Legislation and Congressional Report Requirement
The DoD Inspector General (IG) is required by Public Law 99-591, “Continuing
Appropriations for Fiscal Year 1987,” section 908(b), to periodically conduct audits of
UCAs. DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,”
August 30, 2004, was our last audit before beginning this series of UCA audits.
Section 908 (b) of Public Law 99-591, “Requirements Relating to Undefinitized
Contractual Actions,” states:
               (b) Oversight by Inspector General.—The Inspector General of the Department of
               Defense shall—

                (1) periodically conduct an audit of contractual actions under the
               jurisdiction of the Secretary of Defense (with respect to the Defense
               Logistics Agency) and the Secretaries of the military departments; and

                (2) after each audit, submit to Congress a report on the management of
               undefinitized contractual actions by each Secretary, including the
               amount of contractual actions under the jurisdiction of each Secretary
               that is represented by undefinitized contractual actions.

Background on Undefinitized Contractual Actions
UCAs are agreements that allow a contractor to begin work and incur costs before the
Government and the contractor have reached a final agreement on contract terms,
specifications, or price. Contracting officers should use UCAs only when the negotiation
of a definitive contractual action is not possible in sufficient time to meet the
Government’s requirement. The Government’s requirement must also demand that the
contractor be given a binding commitment so that contract performance can begin
immediately.

UCA Restrictions
        Section 2326, title 10, United States Code, requires that the request to issue a
UCA be sent to the head of an agency, contain the anticipated impact on agency
requirements if a UCA is not used, and establish limitations on the obligation of funds, on
the definitization of terms, and on the allowable profit for UCAs. The Government limits
the use of UCAs because these contracts place the Government at a distinct disadvantage
in negotiating final prices.


                                                 1

UCAs for foreign military sales, purchases that do not exceed the simplified acquisition
threshold, special access programs, and congressionally mandated long-lead procurement
contracts are not subject to compliance with 10 U.S.C. § 2326, but must comply with
Defense Federal Acquisition Regulation Supplement (DFARS) 217.74, “Undefinitized
Contract Actions,” to the maximum extent practicable. Both 10 U.S.C. § 2326 and the
DFARS provide additional restrictions for the approval, definitization, obligation of
funds, and determination of allowable contractor profit.

Specifically, we reviewed the following four areas to determine whether UCAs issued by
ACC-RSA contracting personnel were in compliance.

   	 Authorization to use a UCA: We evaluated whether contracting personnel issued
      UCAs only after obtaining proper authorization. Additionally, we reviewed the
      requests to issue a UCA to verify that the requests adequately address potential
      adverse impacts on agency requirements if a UCA was not issued.

   	 Contract definitization: We evaluated whether ACC-RSA personnel definitized
      UCAs within the 180-day time limit.

   	 Allowable profit: We evaluated whether ACC-RSA contracting personnel’s
      determination of contractor profit reflected the work performed during the
      undefinitized period.

   	 Compliance with obligation limitations: We evaluated whether ACC-RSA
      contracting personnel obligated funding within allowable amounts.

We also reviewed UCAs to determine whether ACC-RSA personnel appropriately
justified the need to use a UCA and whether ACC-RSA personnel adequately
documented that the UCAs were definitized at fair and reasonable prices. In addition, we
reviewed UCAs issued after August 2008 to determine whether ACC-RSA personnel
obligated funds according to the requirements stated in the Office of Defense
Procurement and Acquisition Policy (DPAP) memorandum, “Management Oversight of
Undefinitized Contract Actions,” August 29, 2008, (August 2008 DPAP memorandum).

Enhanced Reporting Requirements
        DPAP issued the August 2008 DPAP memorandum requiring semiannual
reporting of DoD UCA usage for actions with an estimated value of more than
$5 million. See Appendix B for a copy of the memorandum. DPAP introduced the
enhanced reporting requirement in response to the Government Accountability Office
(GAO) Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007, and
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
section 809, “Implementation and Enforcement of Requirements Applicable to
Undefinitized Contractual Actions.”




                                           2

DFARS Case Rulings
         The 2007 GAO audit report resulted in DFARS Case 2007-D011, which clarified
that, in accordance with 10 U.S.C. § 2326, DFARS 217.74 provides the criteria (not
Federal Acquisition Regulation [FAR] 16.603-2, “Application”) for planning the
definitization schedule for a letter contract.1 DFARS Case 2008-D034 expanded the
definition of “contract action” in DFARS 217.74 to include change orders and other un-
priced modifications. Previously, change orders and other un-priced modifications
adhered to guidance to the maximum extent practicable.

ACC-RSA
In 2007, the Secretary of the Army formed an independent commission on Army
Acquisition and Program Management in Expeditionary Operations, also known as the
Gansler Commission, to review recent lessons learned and to recommend ways to
improve future military operations. In compliance with these recommendations, on
October 1, 2008, the Army recognized Army Contracting Command as a major
subordinate command of Army Materiel Command. This new Army organization was
created to perform the majority of contracting work for the U.S. Army. ACC-RSA is
responsible for contracting for Army Aviation and Missile Command (AMCOM).

AMCOM’s mission is to provide sustainment support to joint warfighters and allies
ensuring aviation and missile system readiness with seamless transition to combat
operations; support program executive officers and project managers to enable the
development, acquisition, and fielding of aviation and missile systems; and to ensure the
integration of aviation and missile technology for sustainment. AMCOM develops,
acquires, fields, and sustains aviation, missile, and unmanned vehicle systems.

ACC-RSA UCA Usage (FY 2004─September 18, 2009)
        We selected a nonstatistical sample2 of 30 contracts that included 43 UCAs issued
by ACC-RSA contracting personnel during FY 2004 through September 18, 2009, with a
total not-to-exceed dollar value of about $3.1 billion. We initially identified letter
contracts through queries of the Federal Procurement Data System-Next Generation
(FPDS-NG). We excluded letter contracts related to foreign military sales,
congressionally mandated long-lead procurements, or change orders after identifying
UCAs in FPDS-NG. We requested, and ACC-RSA contracting personnel provided, a list
of UCAs issued from FY 2004 through September 18, 2009, from which we selected
additional UCAs. See Appendix C for a list of UCAs reviewed. Table 1 lists the type of
contract, number of contracts, the number of UCAs, and the total not-to-exceed dollar
value of the UCAs that we reviewed.




1
  A letter contract is a written preliminary contractual instrument that allows a contractor to start work

before the finalization of the contract terms. 

2
  A nonstatistical sample does not generalize to universe; therefore, audit results should not be projected 

across all ACC-RSA UCAs.



                                                      3

                  Table 1. Nonstatistical Sample of ACC-RSA UCAs

                              FY 2004─September 18, 2009 

        Type of Contract            Number of Number of       Not-to-Exceed
                                     Contracts       UCAs       Dollar Value
Letter Contracts                         27           37       $3,006,137,657
Indefinite-Delivery, Indefinite-          2            4
Quantity Contracts                                                 18,733,961
Basic Ordering Agreement                  1            2           64,000,000
Totals                                   30           43       $3,088,871,618

Review of Internal Controls at ACC-RSA
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in ACC-RSA’s management of UCAs. Specifically, ACC-RSA contracting
personnel did not definitize UCAs within allowable time frames and did not adequately
document how costs incurred during the undefinitized period impacted the contractor’s
profit. As a result, delays in definitizing contracts may have weakened ACC-RSA’s
position in price negotiations and increased the cost to the Government. Additionally,
ACC-RSA contracting personnel did not adequately document allowable profit, which
may have resulted in excess profit. We will provide a copy of the report to the senior
officials responsible for internal controls at ACC-RSA.




                                             4

Finding. Inconsistent Management of
Undefinitized Contractual Actions at
ACC-RSA
ACC-RSA personnel did not consistently comply with statutory and DoD requirements
for managing 40 of 43 UCAs we reviewed. For the 40 UCAs, valued at about $2 billion,
ACC-RSA contracting personnel did not:
    	 definitize 16 UCAs within the 180-day time frame because contractors submitted
       inadequate proposals, Government and contractor personnel conducted prolonged
       contract negotiations, and Government requirements changed;
    	 reflect the contractor’s reduced risk in the Government’s negotiation position on
       profit for 7 UCAs because they did not follow applicable guidance;
    	 adequately support whether the reduced risk during the undefinitized period was
       reflected in profit on 22 UCAs because they prepared DD Forms 1547, “Record
       of Weighted Guidelines Application,” and price negotiation memoranda (PNM)
       that did not provide sufficient detail that would allow an independent party to
       determine the basis for profit determination;
    	 obligate funds within allowable limits for 2 UCAs because they miscalculated the
       allowable obligation amount, and they decreased the not-to-exceed value without
       adjusting the amount obligated;
    	 improperly obligated the maximum permissible funding before definitization for
       7 of 9 UCAs issued after the August 2008 DPAP memorandum because they did
       not take steps to implement the requirements of the August 2008 DPAP
       memorandum; and
    	 properly justify using 3 UCAs because of poor acquisition planning.

ACC-RSA contracting personnel prepared adequate authorization requests and
adequately documented their determination of price reasonableness for all 43 UCAs.

As a result, ACC-RSA contracting personnel’s noncompliance with applicable guidance
and lack of consideration for incurred cost may have resulted in the Government paying
more profit than was necessary. Additionally, ACC-RSA price negotiation positions
were about $800,000 higher for three UCAs because ACC-RSA contracting personnel
did not consider incurred cost when developing profit positions.

UCA Deficiencies
Our review of 43 UCAs issued by ACC-RSA contracting personnel identified 57 total
deficiencies. Some UCAs had more than one deficiency. UCA deficiencies consisted of
six different types: untimely definitization, failure to reflect contractor’s reduced cost risk
in negotiated profit, insufficient support of negotiated profit rate, obligating funds in
excess of the allowable amounts, funds not obligated in accordance with requirements
outlined in the 2008 DPAP memorandum, and improper use of a UCA. See Appendix D
for further details of the deficiencies. Table 2 identifies the reasons the UCAs were
deficient.


                                               5

                   Table 2. Reasons 40 UCAs Issued Were Deficient
                          Deficiency Reason                                            Number of
                                                                                       Instances*
Untimely contract definitization                                                           16
Did not reflect the contractor’s reduced risk during the                                    7
undefinitized period in negotiated profit
Did not support whether the reduced risk during the undefinitized                           22
period was reflected in profit
Obligation of funds in excess of allowable amounts                                           2
Obligation of funds in accordance with 2008 DPAP memorandum                                  7
Improper justification to issue a UCA                                                        3
                                                              Total                         57
*A UCA may have more than one deficiency.

ACC-RSA Contracting Personnel Properly Authorized
UCA Requests
ACC-RSA contracting personnel obtained proper authorization before issuing UCAs for
all 43 UCAs. ACC-RSA personnel prepared a request to issue a UCA that complied with
statutory and DoD regulations to fully explain the adverse impact on agency requirements
resulting from delays in beginning performance for all 43 UCAs. Both 10 U.S.C. § 2326
and the DFARS provide guidance on issuing UCAs. Section 2326(a), title 10, United
States Code, states:
               The head of an agency may not enter into an undefinitized contractual
               action unless the request to the head of the agency for authorization of
               the contractual action includes a description of the anticipated effect on
               requirements of the military department concerned if a delay is incurred
               for purposes of determining contractual terms, specifications, and price
               before performance is begun under the contractual action.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and also
requires that the request for UCA approval include a full explanation of the need to begin
contract performance before contract definitization. The head of the agency appoints a
Principal Assistant Responsible for Contracting for the approval to issue a UCA.
Authority to approve the issuance of a UCA can be designated in the event that the
Principal Assistant Responsible for Contracting is absent. ACC-RSA contracting
personnel properly prepared requests to the head of the agency for all 43 UCAs.

Untimely Definitizations
ACC-RSA contracting personnel did not definitize 16 UCAs within the 180-day time
frame specified by 10 U.S.C § 2326 and the DFARS. ACC-RSA contracting personnel
did not definitize the 16 late UCAs within the allowable time frame because contractors
submitted inadequate proposals, ACC-RSA contracting personnel and contractors did not


                                                   6

complete negotiations in a timely manner, and Government personnel changed
requirements after receipt of qualifying proposal. In addition, higher level reviews for
Javelin Missile Launcher procurements contributed to late definitizations.
Section 2326(b), title 10, United States Code, states:
           A contracting officer of the Department of Defense may not enter into an
           undefinitized contractual action unless the contractual action provides for
           agreement upon contractual terms, specifications, and price by the earlier
           of—

               (A) the end of the 180-day period beginning on the date on which the
               contractor submits a qualifying proposal to definitize the contractual
               terms, specifications, and price; or

               (B) the date on which the amount of funds obligated under the
               contractual action is equal to more than 50 percent of the negotiated
               overall ceiling price for the contractual action.

Section 2326(g)(2) defines a “qualifying proposal” as:
               . . . a proposal that contains sufficient information to enable the
               Department of Defense to conduct complete and meaningful audits of
               the information contained in the proposal and of any other information
               that the Department is entitled to review in connection with the
               contract, as determined by the contracting officer.

ACC-RSA personnel exceeded the statutory time limits for 16 of the 43 UCAs reviewed
and, on average, definitized those actions 197 days after receiving a qualifying proposal
and 314 days after UCA issuance. Additionally, for the 16 late actions, contractors did
not provide a qualifying proposal until an average of 113 days after UCA issuance. One
of the 16 late UCAs was late by a single day. See Appendix E for elapsed days between
UCA issuance and definitization. Table 3 shows the primary reasons for ACC-RSA
contracting personnel not definitizing the 16 late UCAs within the required time frames.




                                                 7

                           Table 3. Average Delays in Definitization
      Primary Reason             Number         Average         Average Days            Average
     Definitization Was            of          Days to a            From              Days From
            Late                  UCAs         Qualifying        Proposal to          Issuance to
                                                Proposal        Definitization       Definitization
    Inadequate Proposals             5             51                219                  270
    Negotiation Delays               4             1261               1401                    260
    Change in Government             3             143                 232                    376
    Requirements
    Javelin UCAs                     3             N/A2               N/A2                    383
    Unexplained3                     1             167                195                     362
                   Total            16             113                197                     314
1
  Qualifying proposal was received before issuance for one of the four UCAs. 

2
  Qualifying proposal was received before issuance for all three UCAs. 

3
  ACC-RSA personnel provided insufficient documentation to determine the cause for delay. 


Inadequate Proposals
        ACC-RSA contracting personnel were unable to definitize five UCAs within
allowable time frames because contractors did not provide a qualifying proposal in a
timely manner. The contractor proposals were inadequate because the contracting
officers determined that they did not contain sufficient information to enable DoD
personnel to conduct complete and meaningful audits or determined that the proposals
contained questionable costs. During the period that UCAs remain undefinitized,
contract cost risk transfers from the contractor to the Government. ACC-Redstone
Arsenal Standing Operating Procedure No. 715-1 provides internal guidance to
prescribed policies, procedures, and standards, for the accomplishment of the AMCOM
mission. ACC-RSA personnel should revise the ACC-Redstone Arsenal Standing
Operating Procedure No. 715-1 to include procedures for elevating problems with
obtaining adequate contractor proposals according to contract requirements. The
following two UCAs are examples of how problems with inadequate proposals caused
delays in definitization. In addition to the two examples, ACC-RSA contracting
personnel identified proposal issues as the cause of late definitization for three other
UCAs.

Contract W31P4Q-07-C-0151, Modification P00003
ACC-RSA contracting personnel were unable to definitize contract W31P4Q-07-C-0151,
modification P00003, with a not-to-exceed value of about $310 million, within the
required time frames because of delays in obtaining a qualifying proposal. ACC-RSA
personnel awarded the contract on December 12, 2007, for the acquisition of Patriot
“Pure Fleet/Grow the Army” upgrade kits, installation, and testing for three U.S. tactical
battalions. The contractor provided a qualifying proposal on February 12, 2008.
However, on May 16, 2008, the contractor provided a revised proposal with additional
costs because the contractor had placed a significant amount of material on purchase


                                                   8

orders after they had submitted the qualifying proposal. The updated proposal also
included material and labor that the contractor omitted from the original bill of material.
ACC-RSA personnel did not definitize the contract until September 24, 2008, 225 days
after receipt of a qualifying proposal and 287 days after UCA issuance.

Contract W58RGZ-04-C-0025
ACC-RSA contracting personnel were unable to definitize contract W58RGZ-04-C-0025,
with a not-to-exceed value of about $41.4 million, within the required time frames
because of delays in obtaining a qualifying proposal. ACC-RSA personnel awarded the
contract on January 2, 2004, for the procurement of Raven unmanned aerial vehicle
systems. The prime contractor provided a qualifying proposal on February 26, 2004,
however, one of the subcontractors submitted a proposal that included incomplete labor
information. The subcontractor prepared several revised proposals that were also
inadequate. On May 14, 2004, the contract specialist requested that the prime contractor
provide an updated proposal. DCAA took exception to the subcontractor's proposed
price and the contracting officer definitized the UCA using a not-to-exceed value
provided by the prime contractor. ACC-RSA personnel did not definitize the contract
until August 26, 2004, 182 days after receipt of the qualifying proposal and 237 days
after UCA issuance.

Negotiation Delays
        ACC-RSA contracting personnel were unable to definitize four UCAs within the
180-day requirement in part because of difficulties negotiating the definitive contract.
On average, ACC-RSA contracting personnel took 43 days to negotiate definitive
contracts for the 43 UCAs we reviewed. For the four UCAs that exceeded the 180-day
definitization requirement because of negotiation delays, ACC-RSA contracting
personnel took an average of 82 days to negotiate a definitive agreement. ACC-RSA
contracting personnel should develop procedures for elevating prolonged negotiations
through the chain of command, based on the duration of the negotiations. In addition to
the following example, ACC-RSA personnel identified negotiation delays as the cause of
untimely definitization for three additional UCAs.

Contract W58RGZ-08-C-0257
ACC-RSA contracting personnel were unable to definitize contract W58RGZ-08-C-0257,
with a not-to-exceed value of about $19.2 million, within required time frames. ACC-
RSA contracting personnel awarded the contract on September 3, 2008, for the
procurement of three transportable Blackhawk operations simulators. Negotiations began
on January 20, 2009, for the base devices and concluded on February 13, 2009, 24 days
later. The negotiation was prolonged because the contractor did not provide actual costs
incurred for the devices until February 6, 2009. After settling on the prices for the basic
purchase, ACC-RSA contracting personnel began negotiating the option buys from
February 17, 2009, through March 23, 2009. The prolonged negotiations accounted for
62 days. ACC-RSA contracting personnel did not definitize the contract until May 1,
2009, 240 days after UCA issuance.




                                             9

Changes in Government Requirements
        ACC-RSA contracting personnel were unable to definitize three UCAs within the
180-day time frame because Government requirements changed after ACC-RSA
personnel issued the UCA. After issuing a UCA, contracting personnel have little control
over changing customer requirements. Each significant change in requirements requires
the contractor to prepare or revise a proposal that contracting personnel and possibly
Defense Contract Audit Agency (DCAA) must then review. ACC-RSA contracting
personnel should better coordinate with customers and management to identify changes
in Government requirements as soon as practicable. ACC-RSA contracting personnel did
not definitize the following UCA within the 180-day requirement because of changes in
Government requirements. In addition to the example, ACC-RSA personnel identified
changes in Government requirements as the cause of untimely definitization for two other
UCAs.

Contract W58RGZ-05-G-0005, Delivery Order 0008
ACC-RSA contracting personnel were unable to definitize contract W58RGZ-05-G-
0005, delivery order 0008, with a not-to-exceed value of about $25 million, within the
required time frames because Government requirements changed after ACC-RSA
personnel issued the UCA. On September 28, 2006, ACC-RSA contracting personnel
issued a UCA for aircraft survivability equipment integration for the Apache helicopter.
The contractor submitted a qualifying proposal on February 9, 2007. ACC-RSA
contracting personnel learned of a new requirement for additional wiring for the upgrade
after receiving the proposal. The contracting officer stated that the wiring change was
unknown when they issued the UCA. Contracting personnel added the requirement to the
delivery order because the change impacted production and was less costly than
completing the effort by means of a retrofit. On October 10, 2007, the contractor
provided an updated proposal that combined aircraft survivability equipment integration
and updated wiring. ACC-RSA personnel did not definitize the contract until
February 28, 2008, 384 days after receipt of a qualifying proposal and 518 days after
UCA issuance.

Javelin Missile Launcher Requirements for FYs 2009–2011
       ACC-RSA contracting personnel were unable to definitize three UCAs issued on
W31P4Q-09-C-0376 in a timely manner because of extensive DCAA audits, prolonged
negotiations, and DPAP peer reviews before and after negotiations. Table 4 displays the
timeline for the three Javelin UCAs.




                                          10

                       Table 4. UCAs Issued on Contract W31P4Q-09-C-0376
 Modification               Not-to-Exceed                Issuance               Qualifying                   Definitization
  Number                      Amount                       Date                Proposal Date                     Date
        Basic                     $ 7,239,085             4/8/2009                 1/30/2009                    7/12/2010
      P00001                       214,116,658            6/2/2009                 1/30/2009                    7/12/2010
      P00002                       130,353,004           9/30/2009                 1/30/2009                    7/12/2010
          Total                   $351,708,747

ACC-RSA contracting personnel issued a draft request for proposal W31P4Q-09-R-0184
on August 20, 2008, for various range quantities of Javelin hardware requirements for
FYs 2009 through 2011. The contractor submitted a proposal on January 30, 2009, for
about $3.3 billion. ACC-RSA contracting personnel requested audit assistance from
DCAA to review the proposal. The contracting officer stated that a proposal audit for
the Javelin program would normally have taken 60 days, but because of new audit
threshold requirements, DCAA had to audit entities that had never had their proposals
directly audited. As shown in Figure 1, DCAA conducted the advisory audits from
February through July 2009 and, on average, 132 days elapsed from the request for
proposal to final advisory report issuance date.
                            Figure 1. Contract W3104Q-09-C-0376 Timeline
                     - 08




                     - 09
                     - 08




                     - 09
                    - 08




                    - 09
                    09




                    10
                   08




                   09
                    9




                    0
                b er
                b er



                b er




                b er
  S e p 09
  S e p 08




               b er




               b er
              y -0



              -0 9




              y -1



              -1 0
               r y-




               r y-
              er -




              er -
              09




              10
              t-
              t-




              9

              9




              0

              0
              0
              9


         te m
         te m



       ve m




       ve m
       ce m




       ce m
         ru a




         ru a
        y- 0

        e- 0




        y- 1

        e- 1
        ua r




        ua r
       gu s
       gu s




        rc h




        rc h




       y- 1
       y- 0
       ri l -




       ri l -
       t ob




       t ob
  Fe b




  Fe b
  J un




  J un
  Ma



  Ma




  Ma



  Ma
  J an




  J an
  No




  Ap




  Au
 Au




  No




  Ap




  J ul
  J ul
  Oc



  De




  Oc



  De




 71 Days from     92 Days From                                               UCA 1: 460 Days
 Draft to Final    Final RFP to                                                  UCA 2: 405 Days
     RFP           Contractor's        Advisory Audits                                   UCA 3: 285 Days
                     Proposal                                                        Negotiation: 173 Days
                                                                                                             Peer Review: 77 Days
                                          Days from Draft RFP to Definitization: 691


ACC-RSA contracting personnel issued the first UCA on the basic contract of W31P4Q-
09-C-0376 on April 8, 2009, for long-lead items to begin performance and to avoid work
stoppage. They issued the second UCA on modification P00001 on June 2, 2009, at the
request of the Close Combat Weapon System Project Office, to maintain production after
the delays associated with the DCAA audit results. ACC-RSA personnel issued the third
UCA on September 30, 2009, for Javelin weapon system hardware and to prevent a break
in production. The contracting officer stated the last audit occurred in July 2009, and the
peer review process of the prenegotiation position took until late October 2009, to
complete. The Javelin program was required to undergo a DPAP peer review before
negotiations of a definitive contract began. Negotiations to definitize all three UCAs
began on November 4, 2009, and were completed April 26, 2010, a total of 173 days.

ACC-RSA personnel were unable to definitize the three UCAs issued on W31P4Q-09-C-
0376 within allowable time frames, taking an average of 383 days from issuance to


                                                               11

definitization. After negotiations, the contract was required to go through DPAP peer
review again. The three UCAs exceeded the 180-day requirement because of extensive
DCAA assist audits, lengthy negotiations, and DPAP peer reviews. ACC-RSA
contracting personnel had little control over the definitization time frame of these UCAs.

ACC-RSA Contracting Personnel Did Not Comply With
Requirements to Reflect the Impact of the Undefinitized
Period on Allowable Profit
ACC-RSA contracting personnel issued seven UCAs that did not reflect the contractors’
reduced cost risk in the Government’s negotiation position and issued 22 UCAs that did
not include sufficient support that would allow an independent party to determine the
basis for their profit determination. ACC-RSA contracting personnel were required to
use a structured approach by applying the weighted guidelines method to develop a profit
objective for 41 UCAs.3 ACC-RSA contracting personnel did not reflect reduced cost
risk because they did not comply with applicable guidance for seven UCAs. In addition,
ACC-RSA contracting personnel’s support for profit determination was insufficient for
22 UCAs because supporting documentation did not present:
          the degree to which costs were incurred before definitization,
          the risk factors assigned to the incurred cost and projected cost when the weighted
           guidelines application was used, and
          the resulting impact on the contractor’s profit or fee.
As a result, ACC-RSA contracting personnel’s reliance on guidance with a lower
precedent resulted in negotiation positions that did not adequately consider potential
reduced risk for four of seven UCAs. For the remaining three UCAs, ACC-RSA price
negotiation positions were about $800,000 higher because ACC-RSA contracting
personnel did not consider incurred cost when developing profit positions. In addition,
ACC-RSA contracting personnel may have miscalculated positions entering into
negotiations for the 22 UCAs for which they did not adequately document the
determination of profit. During the undefinitized period, the Government bears increased
risk, and the contractor generally bears reduced risk. If the contractor’s reduced risk is
not reflected in the negotiated profit rate, then the Government could pay too much profit.

Requirements to Reflect Reduced Cost Risk
       Both 10 U.S.C. 2326 and the DFARS provide guidance on profit determination,
and the FAR provides guidance on documentation of the price negotiation. Title
10 U.S.C. 2326(e), states:
               The head of an agency shall ensure that the profit allowed on an
               undefinitized contractual action for which the final price is negotiated after
               a substantial portion of the performance required is completed reflects—




3
    Two UCAs did not have a profit determination because the acquisitions were for commercial items.


                                                      12

               (1) the possible reduced cost risk of the contractor with respect to costs
               incurred during performance of the contract before the final price is
               negotiated; and

               (2) the reduced cost risk of the contractor with respect to costs incurred
               during performance of the remaining portion of the contract.

DFARS 215.404-4, “Profit,” requires that contracting officers use a structured approach
for developing a prenegotiation profit or fee objective on any negotiated contract action
when the contractor provides cost or pricing data, except for cost-plus-award-fee
contracts or contracts with Federally Funded Research and Development Centers.
DFARS 215.404-4 further states that the weighted guidelines method is the structured
approach that must be used, with certain limited exceptions. FAR 15.406-3,
“Documenting the Negotiation,” states that the PNM is the required document in which
the contracting officer must document the basis for the profit or fee prenegotiation
objective and the profit or fee negotiated.

ACC-RSA Did Not Comply With Applicable Guidance
ACC-RSA contracting personnel did not comply with the requirement in 10 U.S.C.
2326(e) to reflect the impact of the undefinitized period in the contractor’s profit or fee
for four UCAs because they relied on guidance with a lower precedent when developing
the Government’s negotiation positions. Contracting personnel adhered to FAR 15.404-
4(c)(6), “Profit” which permits contracting officers to use the basic contract’s profit or
fee rate as the prenegotiation objective for a change or modification to a contract if the
change or modification calls for essentially the same type and mix of work as the basic
contract and is of relatively small dollar value compared to the total contract value.
ACC-RSA contracting personnel should comply with guidance applicable to UCAs and,
where applicable, reflect the reduced risk of substantial incurred costs in their negotiation
positions.

ACC-RSA Did Not Reflect Reduced Risk for Incurred Costs
ACC-RSA contracting personnel did not reflect the contractor’s reduced cost risk in the
Government’s negotiation position for three UCAs because they did not follow DFARS
guidance when using the weighted guidelines method. ACC-RSA contracting personnel
used the weighted guidelines to develop recommended (low) and objective (high) pricing
positions before beginning contract negotiation but did not factor the reduced risk of
substantial incurred costs on either position. As a result, the negotiation positions were
about $800,000 higher than if ACC-RSA contracting personnel had considered the
impact of substantial incurred costs.

ACC-RSA contracting personnel did not factor incurred costs when establishing the
recommended and objective pricing positions for three UCAs. For one UCA, ACC-RSA
contracting personnel developed negotiation positions that included a recommended
position that was about $88,000 higher, and an objective position that was about
$532,000 higher, than if they had factored incurred costs. As a result, the ACC-RSA
contracting personnel’s negotiation position was about $310,000 higher than if they had
considered the reduced risk of incurred costs.



                                                  13

ACC-RSA contracting personnel may not have been able to sustain the negotiation
positions during negotiation. However, to obtain a lower price and comply with
applicable guidance, they should have factored the reduced risk of substantial incurred
costs into the Government’s negotiation position. ACC-RSA contracting personnel could
incentivize timely definitization by reducing profit for incurred cost because a shorter
undefinitized period should result in lower incurred costs on which to reflect reduced
risk. However, if contracting personnel reduce profit too aggressively, contractors may
refuse future UCAs and insist on waiting for a definitive contract. ACC-RSA officials
should revise the ACC-Redstone Arsenal Standing Operating Procedure 715-1 and
AMCOM Acquisition Desk Guide to include detailed procedures on how to use the
weighted guidelines to factor substantial incurred costs into both the objective and
recommended negotiation positions.

Inadequate Documentation of Profit Determination
        ACC-RSA contracting personnel did not adequately document the profit
determination in the PNM for 22 of the 41 UCAs that had a required determination of
profit. ACC-RSA contracting personnel did not include the costs incurred before
definitization for 19 of the 22 UCAs. For the remaining three UCAs, we were unable to
determine the effect that the incurred costs had on the contractor’s profit because the
profit determination was supported only by the DD Form 1547, “Record of Weighted
Guidelines.”

DD Form 1547
The DD Form 1547 did not include incurred cost nor provide sufficient detail for us to
determine the effect of the incurred costs on profit. It should not be used as the sole
documentation for profit determination. Contracting personnel using the weighted
guidelines application assign a value for item 24 for contract type risk, which focuses on
the degree of cost risk accepted by the contractor. When used correctly, the weighted
guidelines application takes into consideration the possible reduced risk of the
undefinitized period by separating the incurred costs and the remaining costs to develop
the profit position. The application then produces a composite contract type risk factor.
However, the DD Form 1547 did not display all of the factors entered by the contracting
officer. Figure 2 illustrates the contractor risk factors section of the DD Form 1547.




                                            14

              Figure 2. Screenshot of the Weighted Guidelines Profit Factors Section 

                                       From DD Form 1547 

                                                   WEIGHTED GUIDELINES PROFIT FACTORS
ITEM       CONTRACTOR RISK FACTORS ASSIGNED WEIGHTING ASSIGNED VALUE             BASE (Item 20)         PROFIT OBJECTIVE
 21.      TECHNICAL                          50%             4.00%
 22.      MANAGEMENT/COST CONTROL            50%             4.00%
 23.      PERFORMANCE RISK (COMPOSITE)                       4.00%      $                       2,000   $            80
 24.      CONTRACT TYPE RISK                                 1.00%      $                       2,000   $            20
                                       COSTS FINANCED   LENGTH FACTOR           INTEREST RATE
    25.   WORKING CAPITAL
                                                                0                   4.75%               $            -
              CONTRACTOR FACILITIES CAPITAL EMPLOYED    ASSIGNED VALUE        AMOUNT EMPLOYED
    26.   LAND
    27.   BUILDINGS
    28.   EQUIPMENT                                           25%
                                                        ASSIGNED VALUE           BASE (Item 20)
    29.   COST EFFICIENCY FACTOR
                                                             0.00%                                      $           -
    30.                                                                       TOTAL PROFIT OBJECTIVE    $           100



Discussion of Impact on Profit Position
The contracting officers may have documented the cost incurred during the undefinitized
period and used the weighted guidelines application to develop a profit objective, but
they did not consistently document the resulting effect on the contractor’s allowable
profit. Without adequate discussion of the contracting officer’s consideration of the cost
incurred, we were unable to determine to what extent the undefinitized period was
reflected in the contractor’s profit. ACC-RSA contracting personnel identified and
entered a profit factor but did not state the degree to which costs were incurred before
definitization, the risk factors assigned to the incurred cost and projected cost, or the
resulting impact on the contractor’s profit or fee.

Contracting personnel should document the costs incurred before definitization and their
impact on profit determination in the PNM. Both GAO and DoD IG recommended in
previous reports that DoD revise the DFARS to include instructions on how to perform
an assessment of any reduced cost risk on profit or fee during the undefinitized period.4
ACC-RSA officials should revise the ACC-Redstone Arsenal Standing Operating
Procedure 715-1 and the AMCOM Acquisition Desk Guide with detailed procedures on
how contracting personnel can reflect possible reduced risk when substantial costs have
been incurred during the undefinitized period.

Adequate and Inadequate Documentation of Profit Determination
       We reviewed the PNM for each of the 41 UCAs that were required to undergo a
weighted guidelines analysis or use an alternate structured approach to determine whether
the contracting officer’s consideration of the undefinitized period and its effect on the
contractor’s profit was adequately documented. The following two UCAs are examples
of adequate and inadequate documentation of profit determination.




4
 GAO Report No. GAO-10-299, “DoD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvements,” January 28, 2010, and DoD IG Report
No. D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004.


                                                           15

Contract W31P4Q-04-C-0059
ACC-RSA contracting personnel prepared the PNM for contract W31P4Q-04-C-0059
that adequately documented the contracting officer’s consideration of the undefinitized
period and its effect on the contractor’s profit. We considered the documentation to be
adequate because it stated the amount of costs incurred before definitization and that the
costs were not substantial enough to reduce risk. The documentation also explained that
because the risk was not reduced, the amount of costs incurred before definitization
would not impact fee calculations. Although contractor profit was not reduced, the UCA
was still in compliance with 10 U.S.C. 2326(e) because it requires that the possible
reduced cost risk be reflected in the contractor’s profit on UCAs for which the final price
is negotiated after a substantial portion of the performance required is completed. The
contracting officer did reflect the undefinitized period in the contractor’s profit but
determined the portion of the required performance that was completed before
definitization was not substantial.
Contract W58RGZ-09-C-0158
ACC-RSA contracting personnel prepared the PNM for contract W58RGZ-09-C-0158
that did not adequately document the contracting officer’s consideration of the
undefinitized period and its effect on the contractor’s profit. We considered the
documentation to be inadequate for several reasons. First, the contracting personnel
stated in the PNM that the weighted guidelines were used; however, they did not detail
the amount of costs incurred before definitization or provide any indication whether costs
were incurred. Second, the contracting personnel did not mention the effect of the
incurred cost and the use of the weighted guidelines application on the contractor’s profit
in the PNM. Third, the contracting officer did not include a discussion of the assigned
risk factors in the PNM. Because contracting personnel did not include sufficient detail
in the PNM about the assigned risk factors, specifically contract type risk, we could not
determine whether the undefinitized period was reflected in contractors’ profit.
Revised Requirement
        In June 2007, GAO issued Report No. GAO-07-559, “Defense Contracting: Use
of Undefinitized Contract Actions Understated and Definitization Time Frames Often
Not Met,” which criticized DoD for inadequately documenting the impact of costs
incurred before definitization on profit and fee rates. In response to the report, the
Director, Defense Procurement, Acquisition Policy, and Strategic Sourcing, issued the
August 2008 DPAP memorandum that provided guidance to contracting officers
regarding the requirements contained in DFARS 215.404-71, “Weighted Guidelines
Method,” which advocates the lowering of contract type risk based on the amount of
costs incurred before definitization. The memorandum required contracting officers to
document the risk assessment in the contract file; however, ACC-RSA personnel did not
update local procedures to include requirements from the August 2008 DPAP
memorandum. See Appendix B for a copy of the memorandum. ACC-RSA contracting
personnel definitized 9 of the 43 UCAs that we reviewed for profit determination after
the August 2008 DPAP memorandum. Seven of nine UCAs were not in compliance with
the August 2008 DPAP memorandum requirement to document the risk assessment in the




                                            16

contract file, and two were in compliance. ACC-RSA officials should revise the ACC-
Redstone Arsenal Standing Operating Procedure 715-1 to include the 2008 DPAP
memorandum requirements.

ACC-RSA Contracting Personnel Generally Complied
With Obligation Restrictions
ACC-RSA contracting personnel properly obligated 41 of 43 UCAs but exceeded the
limitations for obligating funds for 2 UCAs. Contracting officers are limited by
10 U.S.C. § 2326 in the amount of funds they may obligate on a UCA to 50 percent of the
not-to-exceed value before receipt of a qualifying proposal and to 75 percent after receipt
of a qualifying proposal. Exceeding the allowable obligation thresholds puts the
Government in a poor position to negotiate a contract at definitization because
contractors are less inclined to submit a qualifying proposal when there is adequate
funding available to continue the work.

Section 2326(b)(2) and (3), title 10, United States Code, states:

               (2) Except as provided in paragraph (3), the contracting officer for an
               undefinitized contractual action may not obligate with respect to such
               contractual action an amount that is equal to more than 50 percent of
               the negotiated overall ceiling price until the contractual terms,
               specifications, and price are definitized for such contractual action.

               (3) If a contractor submits a qualifying proposal (as defined in
               subsection (g)) to definitize an undefinitized contractual action before
               an amount equal to more than 50 percent of the negotiated overall
               ceiling price is obligated on such action, the contracting officer for such
               action may not obligate with respect to such contractual action an
               amount that is equal to more than 75 percent of the negotiated overall
               ceiling price until the contractual terms, specifications, and price are
               definitized for such contractual action.

ACC-RSA contracting personnel obligated funds in excess of allowable amounts for
two UCAs because they miscalculated the allowable obligation amount, and they reduced
the not-to-exceed value without decreasing the amount obligated. ACC-RSA contracting
personnel inappropriately obligated 50.38 percent of the not-to-exceed value before
definitization for the UCA issued by modification P00021 for contract W31P4Q-04-C-
0159.

ACC-RSA contracting personnel inappropriately obligated more than 50 percent of the
not-to-exceed value before definitizing the UCA for contract W58RGZ-05-G-0005,
delivery order 0022. ACC-RSA contracting personnel decreased the not-to-exceed value
without a corresponding decrease in the obligation amount, which raised the obligated
value to 64.24 percent of the not-to-exceed value. Neither of these instances was
indicative of a ACC-RSA-wide problem with the obligation of funding for UCAs;
therefore, we are not making a recommendation on this issue.




                                                  17

ACC-RSA Contracting Personnel Did Not Obligate Funds
According to Need
ACC-RSA contracting personnel obligated the maximum permissible funding before
definitization for 33 of 43 UCAs. Both before and after DPAP issued the August 2008
memorandum, ACC-RSA contracting personnel commonly funded UCAs to the
maximum amount allowable. ACC-RSA contracting personnel obligated funds for the
maximum amount allowable for 26 of the 34 UCAs from our nonstatistical sample that
were issued before the August 2008 DPAP memorandum and for 7 of the 9 UCAs that
were issued after the August 2008 DPAP memorandum.

ACC-RSA contracting personnel had not taken steps to comply with the August 2008
DPAP memorandum requirement to avoid obligating the maximum permissible funding
at contract award. The August 2008 DPAP memorandum instructed contracting officers
to assess the contractor’s spend plan for the undefinitized period and obligate funding in
an amount consistent with the contractor’s requirements for the undefinitized period.
ACC-RSA contracting personnel should take steps to comply with the August 2008
DPAP memorandum requirement by obligating funding according to the contractor’s
requirements rather than to the maximum amount permissible. Figure 3 shows the
number of UCAs obligated at the maximum amounts at issuance before and after the
August 2008 DPAP memorandum.

 Figure 3. UCAs Obligated at Maximum Allowable Amounts Before Definitization 

             Before and After the August 2008 DPAP Memorandum 



                       30
                                              26
                       25
      Number of UCAs




                       20

                       15

                       10         8                                             7
                        5
                                          2
                        0

                             Before DPAP memorandum              After DPAP memorandum

                                  Funded less than the maximum amount allowable

                                  Funded to the maximum amount allowable





                                                      18

Improper Justifications for Issuing UCAs
ACC-RSA personnel placed the Government at unnecessary risk when they issued three
UCAs on two contracts that were improperly justified because they were for known
acquisition requirements. DFARS 217.7403, “Policy,” limits the use of a UCA to
situations when negotiating a definitive contract is not possible and the Government’s
interest demands contract performance begin immediately. ACC-RSA contracting
personnel improperly issued three UCAs for known requirements which resulted in
increased cost risk to the Government. ACC-RSA contracting personnel should avoid
using UCAs for known requirements because the need should be part of a comprehensive
acquisition plans. Issuing UCAs for known requirements places the Government at
unnecessary and avoidable cost risk.

Contract W58RGZ-05-C-0239, Modification P00009
        ACC-RSA contracting personnel placed the Government at unnecessary risk
when they issued a UCA that was improperly justified because it was for funding
uncertainties for a known requirement to meet project milestones. Specifically, ACC-
RSA contracting personnel issued a UCA on contract W58RGZ-05-C-0239, modification
P00009, with a not-to-exceed value of $82.4 million, for an upgrade that was critical to
acquisition milestones for the Apache helicopter program. The upgrade requirements
were known in August 2003. However, ACC-RSA had not determined how to fund the
upgrade. ACC-RSA contracting personnel issued the UCA for known requirements on
January 20, 2006, citing the need to meet project milestones and the funding
uncertainties. Therefore, ACC-RSA contracting personnel’s use of a UCA for known
requirements placed the Government at unnecessary and avoidable risk.

Contract W31P4Q-04-C-0125
        ACC-RSA contracting personnel issued two UCAs on contract W31P4Q-04-C-
0125 that were not properly justified because they were for requirements that should have
been part of a comprehensive acquisition plan. ACC-RSA personnel issued the first
UCA, with a not-to-exceed value of $22 million on June 30, 2004, for 7 months of field
surveillance and maintenance for the PAC-3 missile. They issued a second UCA on
January 31, 2005, for an additional year of field surveillance. ACC-RSA personnel
should have anticipated the need for a field service team to ensure that the PAC-3
missiles remained certified rounds and included the requirement in the acquisition plan.
ACC-RSA contracting personnel issuing the UCAs for known and recurring requirements
was indicative of poor planning and placed the Government at unnecessary and avoidable
risk.

Reasons ACC-RSA Issued UCAs
        ACC-RSA contracting personnel adequately justified issuing a UCA for 40 of the
43 UCAs and generally limited the usage to circumstances in which the negotiation of a
definitive contract was not possible within the time available to meet Army requirements.
Figure 4 illustrates five primary reasons that ACC-RSA issued UCAs.




                                           19

                      Figure 4. Reasons ACC-RSA Personnel Issued UCAs

 25
                                                                                                         23


 20



 15
                                                                                   12

 10



  5
                3                      3
                                                               2

  0
      Delay in Receipt of the   Known Acquisition   Delay in the Revision of    Maintain        Needed for Contingency
      Contractor's Proposal/      Requirement        Performance Metrics Production/Development      Operations
      Prolonged Negotiations


Adequate Documentation of Fair and Reasonable Prices
ACC-RSA contracting personnel adequately documented their determination of price
reasonableness for all 43 UCAs but did not adequately document the determination of
profit as discussed in this report. FAR 15.403-3, “Requiring information other than cost
or pricing data,” requires that the contracting officer obtain information that is adequate
for evaluating price reasonableness. Further, FAR 15.406-3, “Documenting the
negotiation,” states that the contracting officer must document fair and reasonable price
in the contract file. We reviewed the contract files for the 43 definitized UCAs and
determined that the files contained adequate documentation, such as PNMs, certificates
of current cost or pricing data, technical evaluations, forward pricing rate agreements,
and related audit reports to document contracting officers’ determination of price
reasonableness.

In addition, FAR 15.404-4, “Profit,” states that the contracting officer’s signature on the
PNM documents the contracting officer’s determination that the statutory price or fee
limitations have not been exceeded. Contracting officers signed the PNM for each of the
43 UCAs. According to the PNMs, contracting officers evaluated contractor proposals to
determine that negotiated amounts were fair and reasonable. Table 5 shows the types of
support contracting officers relied on when determining price reasonableness.




                                                         20

     Table 5. Documentation to Support Determination of Price Reasonableness
      Contractor Proposal Evaluated Against                Number of Actions That
                                                           Identified Evaluation in
                                                           Contract Documentation
DCAA, Defense Contract Management Agency, and/or                      40
other audit agency audits
Technical evaluations                                                  42
Forward pricing rate agreements or forward pricing                     34
rate recommendations

ACC-RSA contracting personnel complied with FAR 15.403-4, which outlines
requirements for obtaining current cost or pricing data in the PNMs for 43 UCAs, and the
PNMs for 40 UCAs stated that the contractor provided a certificate of current cost or
pricing data. The final three UCAs did not require certificates of current cost or pricing
data because one was below the $650,000 pricing threshold and the two others were for
the acquisition of commercial items.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commanding General, Army Aviation and Missile
Command, require that Army Aviation and Missile Command Center program
management and Army Contracting Command-Redstone Arsenal contracting
personnel better coordinate with customers to identify changes in Government
requirements as soon as practicable and document changes in the acquisition
narrative.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that guidance will be added to
appropriate Army Contracting Command-Redstone Arsenal publications to reinforce the
requirements in the recommendation. He further stated that guidance will be issued to
ensure these actions are clearly communicated to the appropriate personnel. In addition,
the Chief of Staff, Army Aviation and Missile Command, questioned whether the
recommendation was intended solely for the Commanding General, Army Aviation and
Missile Command, or for both the Commanding General, Army Aviation and Missile
Command, and the Principal Assistant Responsible for Contracting, Army Contracting
Command-Redstone Arsenal. He also stated that the recommendation will be
implemented no later than October 1, 2011.

Our Response
The Chief of Staff, Army Aviation and Missile Command, comments are responsive.
Recommendation 1 is directed to the Commanding General, Army Aviation and Missile
Command, to require that Army Aviation and Missile Command Center program



                                           21

management personnel better coordinate with Army Contracting Command-Redstone
Arsenal contracting personnel and customers to identify changes in Government
requirements as soon as is practicable. Recommendation 2.b is directed to the Principal
Assistant Responsible for Contracting, Army Contracting Command-Redstone Arsenal.
No additional comments are required.

2. We recommend that the Principal Assistant Responsible for Contracting, Army
Contracting Command-Redstone Arsenal:
       a. Revise the Army Contracting Command-Redstone Arsenal Standing
Operating Procedure No. 715-1 to:
              (1) Add guidance to sections 17.74D.2 and 17.74D.3 that provides
incentives and punitive procedures for delays in obtaining an adequate proposal in
accordance with contract requirements.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise the Army Contracting Command-
Redstone Arsenal Standing Operating Procedure 715-1 to further emphasize procedures
for delays in obtaining adequate proposals. He also requested that the Department of
Defense Office of Inspector General clarify specific incentives and punitive actions that
the Army Contracting Command-Redstone Arsenal should use. The Chief of Staff, Army
Aviation and Missile Command, stated that the recommendation will be implemented no
later than October 1, 2011.

Our Response
The Chief of Staff, Army Aviation and Missile Command, comments are responsive.
Specific incentives and punitive procedures for delays in obtaining an adequate proposal
are at the discretion of Army Contracting Command-Redstone Arsenal officials. No
additional comments are required.

              (2) Include instructions in section 17.74D.3 that state when
contracting personnel should engage the Army Aviation and Missile Command
chain of command when prolonged negotiations occur.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise the Army Contracting Command-
Redstone Arsenal Standing Operating Procedure 715-1 to emphasize proper procedures
for prolonged negotiation issues. He stated it would be more accurate to reference Army
Contracting Command-Redstone Arsenal’s chain of command and to state specific
recommended actions. He further stated that guidance will be issued to appropriate
personnel. The Chief of Staff, Army Aviation and Missile Command, stated that the
recommendation will be implemented no later than October 1, 2011.


                                           22

Our Response
The Chief of Staff, Army Aviation and Missile Command, comments are responsive.
While Army Contracting Command-Redstone Arsenal’s suggested referencing the Army
Contracting Command-Redstone Arsenal chain of command and including language
requiring discussion with Army Aviation and Missile Command, we believe our
recommendation offers the appropriate solution and Army Contracting Command-
Redstone Arsenal’s planned actions meet the intent of the recommendation. No
additional comments are required.

       b. Better coordinate with customers and management to identify changes in
Government requirements as soon as practicable and document changes in the
acquisition narrative.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that the effectiveness of the
recommendation would be improved if it was directed to Army Contracting Command-
Redstone Arsenal customers as well because it is the customer who develops the
requirement.

Our Response
The Chief of Staff, Army Aviation and Missile Command, comments are responsive.
The intent of this recommendation is for Army Contracting Command-Redstone Arsenal
management to have contracting personnel better coordinate with Army Aviation and
Missile Command Center program management personnel and customers. The intent of
Recommendation 1 is for the Commanding General, Army Aviation and Missile
Command, to have Army Aviation and Missile Command Center program management
personnel better coordinate with Army Contracting Command-Redstone Arsenal
contracting personnel and customers. If program management and contracting personnel
better coordinate to identify customer changes as soon as practicable, it should reduce the
time necessary to definitize undefinitized contractual actions. No additional comments
are required.

      c. Comply with the requirements in section 2326(e), title 10, United States
Code for determining the profit for undefinitized contractual actions with
substantial incurred cost.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise appropriate publications to emphasize
that contracting personnel must adhere to the United States Code. He also stated that
guidance will be issued to the appropriate personnel and that the recommendation will be
implemented no later than October 1, 2011.



                                            23

       d. Revise the Army Contracting Command-Redstone Arsenal Standing
Operating Procedure No. 715-1 and the Army Aviation and Missile Command
Acquisition Desk Guide to:

               (1) Include guidance for contracting personnel to document their
consideration of reduced risk in the pre-objective negotiation memorandum for the
contractor’s profit or fee when definitizing undefinitized contract actions.
Additionally, the guidance should include instructions on how contracting personnel
should develop and document the Government’s objective for profit or fee when
definitizing an undefinitized contractual action.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise appropriate publications. He further
stated that guidance will be issued to the appropriate personnel. The Chief of Staff,
Army Aviation and Missile Command, stated that recommendations will be implemented
no later than October 1, 2011.

               (2) Require contracting personnel to document in the price
negotiation memorandum support for both the objective and recommended
positions: incurred cost, contract type risk used for both the undefinitized period
and the remainder of the contract, and the impact that the use of the undefinitized
contractual action had on the Government’s position entering into negotiation. In
addition, include instructions for contracting personnel to discuss inputs made to
the contract type risk section of the DD Form 1547, “Record of Weighted Guidelines
Application.”

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise the appropriate publications. He further
stated that guidance will be issued to the appropriate personnel and that the
recommendation will be implemented no later than October 1, 2011.

        e. Require contracting personnel to comply with the August 2008 Office of
Defense Procurement and Acquisition Policy Memorandum, “Management
Oversight of Undefinitized Contract Actions,” requirement to avoid obligating the
maximum permissible funding at the time of undefinitized contractual action award
so that both users and contractors have incentive to coordinate early and often
about proposals, contractual needs, and funding.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will distribute the August 2008 Defense


                                          24

Procurement and Acquisition Policy memorandum and issue guidance to emphasize the
content of the memorandum. He further stated that the recommendation will be
implemented no later than October 1, 2011.

       f. Avoid using undefinitized contractual actions when funding is uncertain
and for known requirements that should have been part of a comprehensive
acquisition plan because it places the Government at unnecessary risk.

Army Contracting Command-Redstone Arsenal Comments
Army Contracting Command-Redstone Arsenal, responding through the Chief of Staff,
Army Aviation and Missile Command, agreed and stated that Army Contracting
Command-Redstone Arsenal officials will revise appropriate publications. He further
stated that guidance will be issued to appropriate personnel. The Chief of Staff, Army
Aviation and Missile Command, also stated that Army Contracting Command-Redstone
Arsenal’s action will reflect the need to avoid the use of undefinitized contractual actions
unless it is in the Government’s best interest. The Chief of Staff, Army Aviation and
Missile Command, stated that the recommendation will be implemented no later than
October 1, 2011.

Our Response
The Chief of Staff, Army Aviation and Missile Command, comments are responsive, and
no additional comments are required.




                                             25

Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through June 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We initially planned to review ACC-RSA’s
use of UCAs as part of a tri-Service audit beginning in July 2009. In September 2009,
we decided to conduct a separate audit for each of the six contracting activities that we
had initially identified to be included in the tri-Service audit. In March 2011, DoD IG
management decided not to conduct the review of U.S. Army Communications-
Electronics Command (CECOM) UCA use because of staffing considerations and higher
priority work. As a result, the summary report will summarize five audit reports in the
audit series.

GAO was conducting a review on the use of UCAs when our audit began. We limited
our site selection to contracting offices that were not included in the GAO engagement.

Universe and Sample Information
We used the FPDS-NG database to identify a universe of UCAs to review. We identified
action obligations coded as letter contracts that the Army issued during FYs 2004 through
2010.5 We classified the action obligations by contract number and contracting office
code to identify the contracting offices responsible for the 15 largest aggregate UCA
dollar values. We excluded one Army contracting organization from consideration
because GAO had an ongoing engagement with similar objectives at the site. We
identified ACC-RSA for review based on the dollar value of UCAs awarded during the
period. We then conducted another search in FPDS-NG to identify additional UCAs that
ACC-RSA contracting personnel issued from the beginning of FY 2004 to FY2010. The
FPDS-NG universe consisted of 123 ACC-RSA actions, valued at about $2.8 billion.
From the UCAs issued by ACC-RSA, we selected a nonstatistical judgment sample of
32 letter contracts to review.

Our audit universe was limited to the contracts identified in FPDS-NG as letter contracts.
Within FPDS-NG, we did not distinctively identify three types of UCAs: “provisioned
item orders,” “indefinite-delivery, indefinite-quantity,” and “basic ordering agreements.”
These types of UCAs are identified in a field the user or input staff modifies and are
subject to individual manipulations of the field that makes searching across the database
unreliable. We supplemented our judgment selection of UCAs with a listing of UCAs
obtained from ACC-RSA. Our final nonstatistical sample consisted of 43 UCAs:
37 UCAs issued on 27 letter contracts; 4 UCAs issued on 2 indefinite-delivery,
indefinite-quantity contracts; and 2 UCAs issued on a basic ordering agreement. See
Appendix C for a list of UCAs that we reviewed.


5
    We performed the query on September 14, 2010.


                                                    26

Review of Documentation and Interviews
We reviewed documentation maintained by ACC-RSA contracting personnel to support
UCAs awarded or definitized from FY 2004 through September 14, 2009. We reviewed:
   UCA request and approval documentation,
   justification and approvals,
   statements of work,
   contract modifications,
   PNM,
   business clearance memoranda, and
   DCAA audit reports.

We evaluated documentation maintained by ACC-RSA against applicable criteria
including:

   	 Statutes and Public Laws: Public Law 99-591, “Continuing Appropriations for
      Fiscal Year 1987”; Public Law 110-181, “National Defense Authorization Act for
      Fiscal Year 2008”; 10 U.S.C. § 2304, “Contracts: Competition Requirements”;
      10 U.S.C. § 2326, “Undefinitized contractual actions: restrictions”;

   	 Federal Acquisition Regulation Requirements: FAR Subpart 6.3, “Other than Full
      and Open Competition”; FAR Subpart 15.4, “Contract Pricing”;
      FAR Subpart 16.6, “Time-and-Materials, Labor-Hour, and Letter Contracts”;
      FAR Subpart 52.2, “Text of Provisions and Clauses”;

   	 Defense Federal Acquisition Regulation Supplement: DFARS 215.404, “Proposal
      Analysis”; DFARS 216.6, “Time-and-Materials, Labor-Hour, and Letter
      Contracts”; DFARS 217.74, “Undefinitized Contract Actions”; DFARS case
      2008-D034, “Management of Unpriced Change Orders”; DFARS case 2007-
      D011, “Letter Contract Definitization Schedule”;

   	 Memoranda: Office of the Under Secretary of Defense for Acquisition, 

      Technology, and Logistics memorandum, “Management Oversight of 

      Undefinitized Contract Actions,” August 29, 2008; and 


   	 Local Guidance: Army Contracting Command-Redstone Arsenal Standing
      Operating Procedure No. 715-1, revised June 10, 2009; and U.S. Army Aviation
      & Missile Command AMCOM Acquisition Desk Guide, revised December 2010.

Use of Computer-Processed Data
We relied on computer-processed data from FPDS-NG to determine the contracting
organizations to visit and to select the nonstatistical sample. We also used Electronic
Document Access to obtain contract documentation. The data were not a basis for our
conclusions or finding. To assess the accuracy of computer-processed data, we verified
the FPDS-NG and Electronic Document Access data against official records at visited



                                           27

contracting activities. We determined that data obtained through FPDS-NG and
Electronic Document Access were sufficiently reliable to accomplish our audit objectives
when compared with contract records.

Use of Technical Assistance
We met with personnel from the DoD IG Quantitative Methods and Analysis Division
and determined that we would use FPDS-NG data to select a nonstatistical sample of
contracting activities and then we would use FPDS-NG data in combination with contract
data provided by the contracting activity to select a nonstatistical sample of UCAs to
review. Our sample was limited to specific contracts, and our results should not be
projected across other ACC-RSA-issued any Army-issued contracts.

Prior Coverage
During the last 5 years, GAO has issued two reports discussing DoD use of UCAs and
the DoD IG has issued four reports. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-299, “Defense Contracting: DoD Has Enhanced Insight into
Undefinitized Contract Action Use, but Management at Local Commands Needs
Improvements,” January 28, 2010

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007

DoD IG
DoD IG Report No. D-2011-068, “Additional Actions Can Improve Naval Air systems
Command’s Use of Undefinitized Contractual Actions,” June 8, 2011

DoD IG Report No. D-2011-024, “Air Force Space and Missile Systems Center’s Use of
Undefinitized Contractual Actions,” December 16, 2010

DoD IG Report No. D-2011-001, “Marine Corps Systems Command’s Use of
Undefinitized Contractual Actions,” October 27, 2010

DoD IG Report No. D-2010-080, “Air Force Electronic Systems Center’s Use of
Undefinitized Contractual Actions,” August 18, 2010




                                          28

Appendix B. August 29, 2008, Office of
Defense Procurement and Acquisition Policy
Memorandum*




* Attachments to the memorandum have been removed from the final report.



                                                 29

30

Appendix C. Undefinitized Contractual Actions Reviewed
                ACC-RSA’s Use of Undefinitized Contractual Actions for FY 2004-September 18, 2009

 UCA            Contract           Delivery Order/              Description of Supplies or Services                  Contract2   Effective      NTE3
Number          Number              Modification                            Procured                                  Type         Date        Amount
                                      Number1                                                                                                 (millions)
           W58RGZ-04-C-0012
  1                                P00010                      2 additional New Build CH-47F model aircraft          FFP/CPFF    8/25/2005      $53.4
  2        W31P4Q-07-C-0151                                     Manufacturing of kits, installation of kits, and     FFP/CPFF    1/31/2007       38.7
                                                           manufacturing of spares for the PATRIOT “Pure Fleet”
                                                               upgrade of tactical assets and associated spares
  3                                P00002                             4-Lot Pure Fleet Tactical Assets                 FFP       9/18/2007       150.0
  4                                P00003                            12-Lot Pure Fleet Tactical Assets               FFP/CPFF    12/12/2007      310.0
  5        W31P4Q-04-C-0059                                System Development and Demonstration, Non-Line-of-          CPIF      3/19/2004     1,105.2
                                                            Sight Launcher System (Precision Attack Missile and
                                                                           Loiter Attack Missile)
           W58RGZ-05-C-0274
  6                                P00004                  Blue Force Tracking Integrated Design for Production        FFP       10/30/2006        8.4
                                                             Installation and the Internal Auxiliary Fuel System
                                                           Integrated Design for Production Installation on the 11
                                                                 AH-64D War Replacement Aircraft (WRA)
  7                                P00008                     18 AH-64D Apache WRA and specified support               FFP       1/31/2007      273.8
                                                               including Reliability and Safety improvements,
                                                               Modernized Target Acquisition and Designation
                                                              Sight/Pilot Night Vision to include provisions for
                                                             installation of Fire Control Radar/Radar Frequency
                                                               Interferometer, and configuration enhancements
  8        W58RGZ-09-C-0129                                               Main Rotor Blade Fold Kits                   FFP       3/24/2009         3.9
  9        W31P4Q-04-C-0061                                Tube-launched Optically-tracked Wire-guided (TOW)           FFP        2/5/2004       63.8
                                                                        2B Aero GEN 2 missiles
  10                               P00016                             TOW Bunker Buster Missiles                       FFP       6/23/2005       33.2
  Acronyms used throughout Appendix C are defined on the final page of Appendix C.



                                                                           31
Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
                ACC-RSA’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009 


 UCA             Contract           Delivery Order/              Description of Supplies or Services                 Contract    Effective      NTE
Number           Number              Modification                            Procured                                 Type         Date        Amount
                                        Number                                                                                                (millions)
  11        W58RGZ-04-C-0025                               Raven Small Unmanned Aerial Vehicle (UAV) Systems            FFP       1/2/2004       41.4
  12                                P00011                               Raven Small UAV Systems                        FFP      2/25/2005       48.4
  13        W58RGZ-06-C-0208                                           Extended Range Multipurpose                     CPFF      8/22/2006       22.9
                                                                        Block 0 configuration UAV
  14        W31P4Q-05-C-0014                                Contractor Logistics Support for Shadow 200 Tactical     CPIF/CPFF   11/1/2004       43.9
                                                                                UAV Systems
  15                                P00013                  Extend the period of performance of the Shadow 200         CPIF      10/31/2005      19.3
                                                                UAV Systems Performance-Based Logistics
  16                                P00020                 90-day extension to continue support of the Shadow 200      CPIF      1/31/2006       16.0
                                                                           Tactical UAV System
            W31P4Q-05-G-0004
  17                                DO-0001                 Integration of the Tactical Common Data Link (TCDL)        CPFF      9/28/2005        3.3
                                                                    into the FY 06 Full Rate Production Buy
                                                                             Ground Control Station
  18                                DO-0003                  Integration of the Blue Force Tracker into the Shadow   FFP/CPFF    5/31/2006         .6
                                                                             Ground Control Station
  19                                DO-0005                    Development and integration of a Laser Designator     FFP/CPFF    8/31/2006        6.4
                                                                      Payload into the Shadow 200 System
  20        W58RGZ-09-C-0065                                  Conversion of 27 Control Display System Version 2      FFP/CPFF    2/27/2009       37.0
                                                              (CDS2) OH-58D Kiowa Warrior Aircraft to the CDS
                                                               Version 4 (CDS4) OH-58D Kiowa Warrior Aircraft
                                                                  Safety Enhancement Program configuration
            W58RGZ-08-C-0224
  21                                P00005                     Kiowa Warrior CDS4 upgrade and enhancement              CPFF       9/1/2009       31.9
  22        W58RGZ-09-C-0049                                   40 Gas Turbine Engines for the OH-58D Aircraft          FFP       12/23/2008      19.5
  Acronyms used throughout Appendix C are defined on the final page of Appendix C.


                                                                            32

Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
                ACC-RSA’s Use of Undefinitized Contractual Actions for FY 2004-September 18, 2009


 UCA            Contract           Delivery Order/              Description of Supplies or Services                 Contract1   Effective      NTE
Number          Number              Modification                            Procured                                 Type         Date        Amount
                                       Number                                                                                                (millions)
  23       W58RGZ-08-C-0257                                   3 Transportable Blackhawk Operation Simulators          FFP       9/3/2008        19.2
  24       W58RGZ-09-C-0158                                        44 Upturned Exhaust Systems ship sets              FFP       6/22/2009       10.5
           W58RGZ-05-D-0073
  25                               DO-0001                 Honeywell Auxiliary Power Unit (APU) Inlet Barrier         FFP       3/11/2005        8.5
                                                           Filter (IBF) Kits, Sundstrand APU IBF Kits, and APU
                                                                               IBF Spare Filters
  26       W58RGZ-07-C-0142                               Integrated Vehicle Health Management System Kits for        FFP       6/26/2007        6.9
                                                                             UH-60 A/L Aircraft
  27       W58RGZ-05-C-0104                                                  Blue Force Tracking                      FFP       1/31/2005        3.7
  28       W31P4Q-04-C-0154                                           PATRIOT Advanced Capability                     FFP       6/24/2004        2.4
                                                                         Ground Support Equipment
  29       W31P4Q-05-C-0015                               Authorized Stockage List and Prescribed Load List and       FFP       12/13/2004      22.4
                                                          Modifiable Replacement Parts for the PATRIOT System
  30       W31P4Q-04-C-0125                                      PATRIOT Advanced Capability-3 (PAC-3)                CPFF      6/29/2004       22.0
                                                                           Missile Support Center
  31                               P00004                              PAC-3 Missile Support Center                   CPFF      1/31/2005       17.8
  32       W31P4Q-05-C-0033                                PATRIOT services, hardware, facilities, and equipment      CPFF      1/31/2005       14.2
                                                                   for support to PATRIOT missile rounds
  33       W31P4Q-05-C-0094                                Development, fabrication, testing, and production of a     CPIF      6/30/2005        9.4
                                                          portable Flight Mission Simulator through an upgrade to
                                                                    the Fixed Flight Mission Simulator at
                                                                         White Sands Missile Range
           W31P4Q-04-C-0159
  34                               P00021                              Modularization of 1st Cavalry                   FPI      4/21/2005       23.6
   Acronyms used throughout Appendix C are defined on the final page of Appendix C.



                                                                           33

Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
                    ACC-RSA’s Use of Undefinitized Contractual Actions for FY 2004–September 18, 2009

 UCA                 Contract            Modification            Description of Supplies or Services Procured              Contract1   Effective      NTE2
Number               Number               Number                                                                             Type        Date        Amount
                                                                                                                                                    (millions)
    35         W31P4Q-05-C-0036                                                   Hellfire Missiles                          FFP       12/22/2004      90.8
    36         W31P4Q-04-C-0144                                 Improved Weapons Interface Unit retrofit program for the     FFP       7/12/2004        5.6
                                                                  Multiple Launch Rocket System M270A1 Launcher
               W58RGZ-05-C-0239
    37                                   P00009                        Block III Radar Electronics Unit and TCDL             CPIF      1/20/2006       82.4
    38         W31P4Q-08-C-0145                                           Bradley A-3 TOW Missile Launchers                  FFP       3/20/2008        9.4
               W58RGZ-05-G-0005
    39                                   DO-0008              Integration of Aircraft Survivability Equipment and Common     FFP       9/28/2006       25.0
                                                                   Missile Warning System into the Extended Block II
                                                                    Remanufacture Program for the Apache Longbow
                                                                               Advanced Attack Helicopter
     40                                  DO-0022                       142 Improved Helmet Display Sight System              FFP       3/19/2007       39.0
     41         W31P4Q-09-C-0376                                                 Javelin Long-Lead Items                     FFP        4/8/2009        7.2
     42                                  P00001                             Javelin FY09 Full Rate Production                FFP       6/2/2009       214.1
     43                                  P00002                                   Javelin FY09 Hardware                      FFP       9/30/2009      130.4
1
  DO: delivery order

2
  FFP: firm-fixed-price; CPFF: cost-plus-fixed-fee; CPIF: cost-plus-incentive-fee; and FPI: fixed-price incentive.

3
  NTE: not-to-exceed amount.





                                                                                     34

Appendix D. Deficiencies Identified From ACC-RSA UCAs Reviewed
                            Detailed Results of Undefinitized Contractual Actions Reviewed
                                                Deficiencies in ACC-RSA Use of Undefinitized Contractual Actions
 UCA        Contract         Delivery Order/   Effective    Definitization   Profit     Obligation Limits    Inadequate
Number      Number            Modification       Date         Untimely                Exceeded or Maximum    Justification
                                 Number                                                Amount Obligated at     to Issue
                                                                                            Issuance
         W58RGZ-04-C-0012
  1                              P00010        8/25/2005                      √2
  2      W31P4Q-07-C-0151                      1/31/2007
  3                              P00002        9/18/2007                      √1
  4                              P00003        12/12/2007           √P
  5      W31P4Q-04-C-0059                      3/19/2004
         W58RGZ-05-C-0274
  6                              P00004        10/30/2006                     √2
  7                              P00008        1/31/2007            √P        √2
  8      W58RGZ-09-C-0129                      3/24/2009                      √2               √3
  9      W31P4Q-04-C-0061                       2/5/2004                      √2
  10                             P00016        6/23/2005                      √1
  11     W58RGZ-04-C-0025                       1/2/2004            √P        √1
  12                             P00011        2/25/2005                      √2
  13     W58RGZ-06-C-0208                      8/22/2006                      √1
  14     W31P4Q-05-C-0014                      11/1/2004                      √2
  15                             P00013        10/31/2005        √N           √1
  16                             P00020        1/31/2006                      √1




                                                              35

Appendix D. Deficiencies Identified From ACC-RSA UCAs Reviewed
(cont’d)
                            Detailed Results of Undefinitized Contractual Actions Reviewed
                                                Deficiencies in ACC-RSA Use of Undefinitized Contractual Actions
 UCA        Contract         Delivery Order/   Effective    Definitization   Profit     Obligation Limits     Inadequate
Number      Number            Modification       Date         Untimely                Exceeded or Maximum    Justification to
                                 Number                                                Amount Obligated at        Issue
                                                                                            Issuance
         W31P4Q-05-G-0004
  17                             DO-0001       9/28/2005         √U           √2
  18                             DO-0003       5/31/2006                      √2
  19                             DO-0005       8/31/2006                      √2
  20     W58RGZ-09-C-0065                      2/27/2009         √N                            √3
         W58RGZ-08-C-0224
  21                             P00005         9/1/2009            √P        √2
  22     W58RGZ-09-C-0049                      12/23/2008                                      √3
  23     W58RGZ-08-C-0257                       9/3/2008         √N           √2
  24     W58RGZ-09-C-0158                      6/22/2009         √N           √2               √3
         W58RGZ-05-D-0073
  25                             DO-0001       3/11/2005                      √2
  26     W58RGZ-07-C-0142                      6/26/2007
  27     W58RGZ-05-C-0104                      1/31/2005                      √2
  28     W31P4Q-04-C-0154                      6/24/2004            √P        √1
  29     W31P4Q-05-C-0015                      12/13/2004                     √2
  30     W31P4Q-04-C-0125                      6/29/2004                      √2                                    √
  31                             P00004        1/31/2005                      √2                                    √


                                                              36

Appendix D. Deficiencies Identified From ACC-RSA UCAs Reviewed
(cont’d)
                                    Detailed Results of Undefinitized Contractual Actions Reviewed

                                                                  Deficiencies in ACC-RSA Use of Undefinitized Contractual Actions
 UCA              Contract             Delivery Order/           Effective    Definitization        Profit     Obligation Limits                  Inadequate
Number            Number                Modification               Date         Untimely                     Exceeded or Maximum                  Justification
                                           Number                                                             Amount Obligated at                   to Issue
                                                                                                                   Issuance
   32         W31P4Q-05-C-0033                                   1/31/2005                           √2
   33         W31P4Q-05-C-0094                                   6/30/2005
              W31P4Q-04-C-0159
   34                                        P00021              4/21/2005                                                  √4
   35         W31P4Q-05-C-0036                                   12/22/2004          √C
   36         W31P4Q-04-C-0144                                   7/12/2004                           √2
              W58RGZ-05-C-0239
   37                                        P00009              1/20/2006                           √2                                                   √
   38         W31P4Q-08-C-0145                                   3/20/2008
              W58RGZ-05-G-0005
   39                                       DO-0008              9/28/2006           √C
   40                                       DO-0022              3/19/2007           √C              √2                     √4
   41         W31P4Q-09-C-0376                                    4/8/2009           √J                                     √3
   42                                        P00001               6/2/2009           √J                                     √3
   43                                        P00002              9/30/2009           √J                                     √3
              Total                                                                  16              29                     9                             3
√ Discrepancy noted.                                         4
                                                               Exceeded 10 U.S.C. 2326(b) limits             P
                                                                                                                 Inadequate contractor proposal
1                                                            C                                               U
  No reflection of reduced cost risk in negotiated profit.     Changes in Government requirements                Unknown reason for late definitization
2                                                            J
  Inadequate profit determination documentation.               Related to the Javelin program
3                                                            N
  Not in compliance with August 2008 DPAP memorandum.          Prolonged negotiations

                                                                                37
Appendix E. Definitization Elapsed Days for ACC-RSA UCAs
                             ACC-RSA’s Definitization Details for FY 2004-September 18, 2009

   Contract 
      Effective 
      Qualifying 
   Definitization 
     Days From Award to 
           Days From Receipt of    Days From 

   Number 
          Date 
          Proposal 
        Date 
           Receipt of Qualifying 
        Qualifying Proposal      Award to 

                                       Date 
                                 Proposal 
                 to Definitization    Definitization 

W58RGZ-04-C-0012
    P00010            8/25/2005       7/29/2005      12/22/2005       Received before UCA award date           N/A                 119
W31P4Q-07-C-0151      1/31/2007       2/20/2007      7/31/2007                      20                         161                 181
    P00002           9/18/2007        11/27/2007     4/30/2008                      70                         155                 225               

    P00003         
12/12/2007        2/12/20
                                           
 08      9/24/2008                      62                         225                 287           

W31P4Q-04-C-0059     
3/19/2004     
 4/29/2004      8/20/2004                      41                         113                 154
W58RGZ-05-C-0274
    P00004         
10/30/2006        1/18/2007         4/4/2007                    80                          76                 156           

    P00008             1/31/2007      1/15/2007       11/15/2007      Received before UCA award date           N/A                 288
W58RGZ-09-C-0129       3/24/2009       5/4/2009        6/18/2009                    41                          45                  86
W31P4Q-04-C-0061        
2/5/2004   
 10/30/2003       6/4/2004       Received before UCA award date           N/A                 120
    P00016            6
 /23/2005     7/25/20
                                           
 05       12
/22/2005                   32                         150                 182           

W58RGZ-04-C-0025        1/2/2004      2/26/2004        8/26/2004                    55                         182                 237
    P00011           2
 /25/2005      7/25/2005        9
/8/2005                    150                        45                  195           

W58RGZ-06-C-0208       8/22/2006      11/27/2006       2/9/2007                      97                         74                 171
W31P4Q-05-C-0014        11/1/2004     10/18/2004        4/7/2005      Received before UCA award date           N/A                 160
    P00013          
10/31/2005        5/12/20
                                            
 06        6
/1/2006                   193                         20                 213           

    P00020             
1/31/2006         N/
A       
 3/31/2006                   N/A                         N/A                  59           





                                                                      38

Appendix E. Definitization Elapsed Days for ACC-RSA UCAs (cont’d)
                             ACC-RSA’s Definitization Details for FY 2004-September 18, 2009

   Contract        Effective         Qualifying 
            Definitization 
             Days From Award to 
          Days From Receipt of    Days From 

   Number            Date             Proposal 
                 Date 
                   Receipt of Qualifying 
       Qualifying Proposal     Award to 

                                        Date 
                                                  Proposal 
                to Definitization    Definitization

W31P4Q-05-G-0004
    DO-0001        
9/28/2005         3/14
/2006                     9/25/2006                      167                         195                 362          

    DO-0003         5
 /31/2006       7/17
/2006                     11
/14/2006             
      47                          120                 167          

    DO-0005          8
 /31/2006      10/10
 /2006                    3/2/2007                      40                          143                 183          

W58RGZ-09-C-0065      2/27/2009       5/11/2009          
           12/17/2009    
                73                          220                 293
W58RGZ-08-C-0224
     P00005         9/1/2009           10/8/20
                                             
 09                    6/16/2010                       37                         251                 288              

W58RGZ-09-C-0049   12/23/2008           
2/6/2009                
   6/19/2009         
             45                         133                 178
W58RGZ-08-C-0257    9/3/2008           7/12/2008                      5/1/2009         Received before UCA award date           N/A                 240
W58RGZ-09-C-0158   6/22/2009         
 10/13/2009            
       4/12/2010                       113                        181                 294
W58RGZ-05-D-0073
    DO-0001          3
 /11/2005        5/4/
2005                    9
/21/2005          
          54                          140                 194          

W58RGZ-07-C-0142      6/26/2007        6/21/2007                      8/9/2007        Received before UCA award date            N/A                 44
W58RGZ-05-C-0104      
1/31/2005     
 4/6/2005      
               5/23/2005      
               65                           47                 112
W31P4Q-04-C-0154        6/24/2004      11/10/2003                    2/28/2005        Received before UCA award date            N/A                 249
W31P4Q-05-C-0015   1
 2/13/2004      
 4/1/2005      
               8/19/2005     
                109    
                    140    
            249
W31P4Q-04-C-0125       6
 /29/2004   
 9/27/2004         
           1/27/2005      
               90                          122                 212
     P00004           1/31/2005        3/31/2005                     9/27/2005                      59                          180                 239              

W31P4Q-05-C-0033        1/31/2005      12/10/2004                    5/26/2005        Received
                                                                                       
       before UCA award date            N/A                 115
W31P4Q-05-C-0094        6/30/2005       5/9/2005                     12/22/2005       Received before UCA award date            N/A                 175




                                                                                       39

Appendix E. Definitization Elapsed Days for ACC-RSA UCAs (cont’d)
                            ACC-RSA’s Definitization Details for FY 2004–September 18, 2009

   Contract        Effective       Qualifying   Definitization     Days From Award to              Days From Receipt of    Days From
   Number            Date           Proposal        Date           Receipt of Qualify ng           Qualifying Proposal     Award to
                                      Date                               Proposal                    to Definitization    Definitization
W31P4Q-04-C-0159
     P00021         4
 /21/2005     5/27/2005
                                         
        8/22/2005
                                                     
                        36                           87                  123         

W31P4Q-05-C-0036   
12/22/2004       3/2/2005     9/26/2005                   70                           208                 278
W31P4Q-04-C-0144     7
 /12/2004    11/3/2004      4/6/2005                   114                          154                 268
W58RGZ-05-C-0239
     P00009        
1/20/2006       4/12/2006
                                        
         9/29/2006
                                                    
                          82                          170                 252         

W31P4Q-08-C-0145    
3/20/2008      4/30/2008     10/7/2008                    41                          160                 201
W58RGZ-05-G-0005
    DO-0008        
9/28/2006       2/9/2007
                                       
          2/28/2008
                                                     
                          134                        384                 518
    DO-0022        
3/19/2007      10/31/2007
                                       
          2/13/2008
                                                       
                        226                        105                 331
W31P4Q-09-C-0376     
4/8/2009     1/30/2009       
7/12/2010    Received
                                                                    
      before UCA award date           N/A                 460 

     P00001           
6/2/2009    1/30/2009
                                         
        7/12/2010
                                                         
       R
                                                                 
 eceived before UCA award date           N/A                 405 

     P00002         
9/30/2009     1/30/2009
                                         
        
7/12/2010     Received
                                                                    
      before UCA award date           N/A                 285 





                                                                 40

Department of the Army Comments




                  Click to add JPEG file




                                 41
Click to add JPEG file




               42

Click to add JPEG file




               43

Click to add JPEG file




               44

Click to add JPEG file




               45

Click to add JPEG file




               46

Click to add JPEG file




               47

Click to add JPEG file




               48

